2311 Douglas Street
Omaha, Nebraska 68102-1214

Lo
|

C@OCKLE

Legal Briefs

E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, ET AL.,
Petitioners,

v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of August, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE OFFICE OF THE COOK COUNTY PUBLIC
GUARDIAN AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly

addressed to the following:

To be filed for:
CHARLES P. GOLBERT
Counsel of Record
CHRISTINA SCHLEICH
DANIELLE GOMEZ
ALISON L. STANKUS
JILL RUNK
NICHOLAS YOUNGBLOOD
JEFFREY STERBENC
KASS A. PLAIN
ALPA JAYANTI PATEL
JANET L. BARNES
CAROL CASEY
SARAH DONOVAN
KEVIN JEREMIAH
ULYSSES ROSALES
JEAN AGATHEN

SEE ATTACHED

OFFICE OF THE COOK COUNTY
PUBLIC GUARDIAN
2245 West Ogden Avenue,
Fourth Floor
Chicago, Illinois 60612
(312) 433-4300
charles.golbert@cookcountyil.gov

Counsel for Amicus Curiae

Subscribed and sworn to before me this 20th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska

RENEE J. GOSS
My Comm. Exp. September 5, 2023,

 

Oude hb, Gh he

Affiant

Kepee. 0. dase?

Notary Public 39967
Mark Leonard Rienzi

The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

(202) 955-0095
mrienzi@becketlaw.org

Counsel for Petitioners

Neal Kumar Katyal

Hogan Lovells US LLP

555 Thirteenth St., NW
Washington, DC 20004

(202) 637-5528
neal.katyal@hoganlovells.com

Counsel for Respondents

Leslie Cooper

America Civil Liberties Union
125 Broad Street

New York, NY 10004

(212) 519-7815
lcooper@aclu.org

Counsel for Intervenor-Respondents
